Visa Signature
Credit Card Agreement
1. INTRODUCTION.
This VISA Credit Card Agreement (Agreement) and the Account
Disclosures accompanying this Agreement will govern your
Signature Visa account issued by OnPoint Community Credit
Union. In this Agreement the words “you,” “your,” “yours,”
“applicant,” and “Borrowers” mean any person who signs the
application for this Account, any joint obligor, guarantor, or the
person whose name is embossed on the Card. The words “we,”
“our,” and “OnPoint” means OnPoint Community Credit Union.
The word “Card” means any one or more credit cards issued
under OnPoint’s Signature Visa program. Except as otherwise
specified in this Agreement, all terms and conditions of this
Agreement apply to any Card issued under any of the abovereferenced programs. If you sign a written or online application
for this Account or sign or use any Card or PIN, or allow others
to use the Card or PIN, you and they will have accepted this
Agreement just as if you and they signed it, and you and they,
jointly and severally, will be bound by the following terms and
conditions which will govern this Account.
2. ACCOUNT ACCESS.
A. Purchases and Cash Advances. You must sign the Card to
use it. Once you have signed the Card, you can use it to make
purchase, cash advance and balance transfer transactions up to
the full amount of your credit line. You may use your Account to
get cash advances from OnPoint. You may also use your Card
to get a cash advance from participating financial institutions
or automated teller machines (ATMs). You may use your Card to
purchase goods and services any place your Card is honored
by participating merchants. No purchase amount may exceed
the available funds in your account. Only credit card balance
transfers you make from another institution will be permitted
and treated as a cash advance. OnPoint reserves the right to
refuse any transaction that would draw upon insufficient funds.
B. VISA Convenience Checks. If we approve, you may obtain
advances under your Account by writing preprinted VISA
convenience loan checks that we supply to you. Your use of
loan checks will be shown as cash advances on your monthly
statement. We may not honor your loan check if: your check is
post-dated; payment of the check would exceed your Credit
Limit; a check is signed by a person without authorized access;
the amount of the check is less than the minimum required
1

amount; your Account has been terminated or suspended,
or any drafts have been reported lost or stolen. You may stop
payment on a loan check if you provide OnPoint with the exact
information describing the check. If you give OnPoint incorrect
information, we will not be responsible for failing to stop
payment. You understand there may be a charge for each stop
payment order requested. Our liability for a wrongful dishonor
is limited to your actual charges, however, a dishonor for the
reasons stated above is not a wrongful dishonor. Only the person
whose name is printed on a convenience check may sign it. All
convenience checks must be written in U.S. dollars. We will not
certify a convenience check. You may write these checks for
any amount providing your total outstanding balance does not
exceed your available credit limit and your credit card remains in
good standing. We are entitled to return it unpaid if there is not
enough available credit on your account to pay it, if you are in
default under this Agreement, if your card or convenience checks
have been reported lost or stolen, or if the convenience check
is post-dated. Over-limit fees will be charged as applicable. A
VISA convenience check may not be used to make a payment on
your Account. OnPoint shall have no liability for any convenience
check returned in excess of your credit line.
C. Overdraft Advances. In the event we have approved
overdraft protection for you, for any overdrafts on a savings
or checking account of yours, we will treat the overdraft as
a request for a cash advance on your credit line and we will
transfer this amount to your overdrawn account. For purposes
of this Agreement, an overdraft advance will be treated as a
cash advance.
3. YOU PROMISE TO PAY.
You promise to pay OnPoint all such amounts, plus any Interest
Charges, which arise from use of the Card or Account by you
or any other person, and to be jointly and severally liable with
such a person, unless such other person does not have actual,
implied, or apparent authority for such use, and you received no
benefit from the use. You promise to pay OnPoint either by direct
payment or by automatic transfers from savings or checking.
4. CREDIT LINE.
This Agreement will constitute a revolving line of credit for
an amount, which will be the credit line under your Account.
You may access your credit line through Card purchases, cash
advances at participating merchants and loan checks. We will
advise you of the amount of your credit line on your statement.
That amount will be the maximum amount you may have
outstanding at any one time. You agree not to attempt to obtain
more credit than the amount of your credit line. We retain the
right to increase or decrease your credit line at any time for any
reason. Any increase or reduction on the limit of your credit line
will be shown on your monthly statement or by separate notice
together with any changes in the applicable minimum monthly
payments. Your eligibility for this credit line is determined by
our loan policy and may be terminated at our sole discretion,
without demand or notice. You may close your credit line at any
time by notifying OnPoint in writing and returning all Cards cut
2

in half. If you terminate this Agreement or if we terminate or
suspend your credit privileges, the provisions of this Agreement
and your liability hereunder shall otherwise remain in full force
and effect until you have paid OnPoint all sums due OnPoint
under this Agreement and returned all Cards.
5. MINIMUM MONTHLY PAYMENT.
You agree that you will pay each month not less than the
minimum monthly payment on or before the scheduled monthly
due date. The minimum monthly payment will be 2% of your
outstanding balance (“New Balance”) or $50.00, whichever is
greater. If your outstanding balance is $50.00 or less, you agree
to pay the balance in full. The total minimum payment due
each month is the minimum monthly payment, any amounts
past due and any overlimit amounts. You may pay in full for all
your purchases and cash advances each month, or you may
repay in monthly installments. We can accept late payments or
partial payments, or checks, drafts, or money orders marked
“payment in full” without prejudice to our rights under this
Agreement, which are hereby explicitly reserved. A credit
posting from a merchant or reversal of fees do not constitute a
minimum monthly payment. Your payments may be allocated
at the Credit Union’s discretion to pay off lower rate balances,
such as promotional offers, before higher rate balances, such
as cash advances or purchases. Payments in excess of the
minimum payment will be allocated first to higher rate balances,
as applicable. From time to time, we may allow you to skip
your minimum monthly payment due. If you choose to skip that
payment, Interest Charges will continue to accrue in accordance
with this Agreement. Payments received at: OnPoint Community
Credit Union, PO Box 60510, City of Ind, CA 91716-0510 at or
before 5:00 PM Pacific Time on any business day will be credited
to your Account as of that date; payments received by mail at
that address after 5:00 PM Pacific Time, on a weekend or federal
holiday will be posted to your Account as of the next business
day. Payment crediting to your Account may be delayed up
to five days if your payment is received by mail at any other
address or not accompanied by the remittance portion of your
Account statement.
6. SECURITY INTEREST.
You grant OnPoint a security interest under the Oregon Uniform
Commercial Code in any goods purchased with your Card.
You agree that all collateral you have given OnPoint to secure
other open-end consumer loan obligations (except dwellingsecured loans), in the past and in the future, will secure your
obligations under this Agreement. In addition, by signing the
Card Application, you have given OnPoint a security interest in
all your deposits, present and future, and all accounts (except
Individual Retirement Accounts) with OnPoint. You agree,
upon default, OnPoint may apply all that is secured to pay any
amounts due under this Agreement, without further notice to
you. You also agree that cross-collateralization is a condition of
receiving your card.
7. MONTHLY STATEMENTS.
Each month we will send you a statement showing purchases,
3

cash advances, payments, and credits made to your Account
during the billing cycle, as well as your “New Balance,” any
Interest Charge and any late charge or other charges. Your
statement also will identify the Minimum monthly payment
you must make for that billing period and the date it is due.
You agree to retain for statement verification copies of
transaction slips resulting from each purchase, each advance,
and other transaction on your Account. Unless you notify
OnPoint of a billing error as described below, you accept your
monthly statement as an accurate statement of your Account
with OnPoint.
8. CIRCUMSTANCES UNDER WHICH AN INTEREST CHARGE
WILL BE IMPOSED.
The total outstanding balance of purchases and cash advances
in the Account on the closing date of a billing cycle, including
any fees and Interest Charges will be shown on the Periodic
Statement for that billing cycle as the “New Balance.”
A. Cash Advances and Balance Transfers. An Interest Charge
will be imposed on cash advances (including balance transfers,
convenience check advances and overdraft advances) from
the date each cash advance is made or the first date of the
billing cycle in which the cash advance is posted, whichever
is later, until such advances are paid. There is no time period
within which to pay to avoid a periodic Interest Charge on cash
advances, including balance transfers and convenience check
cash advances.
B. Purchases. An Interest Charge will be imposed on the
portion of purchases included in the new balance that remains
unpaid 25 days after the closing date. This “grace period”
allows you to avoid a Interest Charge on purchases for a billing
cycle. However, to the extent you do not pay your purchase
transactions from the previous billing cycle within the grace
period, your Interest Charge will accrue from the date purchases
are posted to your account.
9. METHOD USED TO DETERMINE THE BALANCE ON
WHICH THE INTEREST CHARGE MAY BE COMPUTED AND
AMOUNT OF INTEREST CHARGE.
We figure the Interest Charge on your Account by applying the
Periodic Rate to the “Average Daily Balance” of the account
including current purchases and cash advances for your
Account. To get the “Average Daily Balance” we take the
beginning purchase and cash advance balances of your Account
each day, add any new purchases and cash advances and
subtract any payments or credits, unpaid Interest Charges and
unpaid late charges. The Interest Charge is determined by
multiplying the average daily balance by the number of days in
the billing cycle and applying the Periodic Rate to that amount.
No Interest Charge is imposed on purchases to the extent
payments and credits for purchases are made within 25 days of
the closing date of the previous billing cycle. The “Total Interest
Charge” shown on your monthly statement consists of the
periodic Interest Charge on purchases and the periodic Interest
Charge on cash advances.
4

10. PERIODIC RATE AND CORRESPONDING ANNUAL
PERCENTAGE RATE (VARIABLE).
A. Standard Rates. To obtain the Periodic Rate, we divide the
Annual Percentage Rate by 365. The Annual Percentage Rate
may change as of the first day of each billing cycle, based on
an index which is The Wall Street Journal Western Edition
Prime Rate as of the 10th day of the month (or next business
day if the 10th falls on a weekend), plus a margin. If the Prime
Rate changes on the 10th day of the month, the change will be
effective on the 1st day of your next billing cycle following the
change. The margin for your Account depends on your credit
profile and will be set forth in the Account Disclosure that is
provided when your Account is opened, and is incorporated in
this Agreement.
B. Introductory or Promotional Rates. At our discretion,
we may offer you an introductory or promotional Annual
Percentage Rate for your Account. Any introductory or
promotional Annual Percentage Rate will be subject to the
terms of the offer and this Agreement. We will provide you
with information on the offer, including the time period the
introductory or promotional Annual Percentage Rate is in effect
in the Account Disclosure when you open your Account or in
other materials that we send to you about the offer after you
receive your Credit Card.
C. Default Rate. In the event you are in default of this
Agreement or if you have more than one late payment in
twelve (12) months the Annual Percentage Rate on your entire
outstanding balance will be increased by 3.00% above your
current variable Annual Percentage Rate on the first day of the
new billing cycle following the late payment or notice of default
and will continue until you have six (6) months without any late
or insufficient minimum payments or you satisfy the default
condition.
11. CONDITIONS UNDER WHICH OTHER CHARGES MAY
BE IMPOSED.
We may impose the following fees and charges on your Account:
A. Late Fee. If we do not receive your minimum payment within
3 days of the due date, we may impose a Late Fee of $25.00
(balances greater than $1000); $20 (balances $100-$1000); $10
(balance $99 or less). If you have more than one late payment
in twelve (12) months your account may be subject to a default
Annual Percentage Rate as set forth above.
B. Returned Item Fee. If any check we receive from you as
payment on your Account is returned to OnPoint unpaid or
for any convenience check drawn on your Account is returned
unpaid, we may impose a Returned Item Fee of $25.00.
C. Card Replacement Fee. We may impose a $5.00 card
replacement fee for each VISA card, which is lost, stolen,
or damaged.
D. Annual Fee. There is no annual fee for use of your Card
and account.
E. Miscellaneous Photocopying. If you request a copy of a
sales draft or other document, we may charge your Account
5

$2.00 per copy and $25.00 per hour. These charges cover the
costs of locating, copying, and delivering the documents to you.
If a request is related to a billing error and an error is found, we
will reverse any photocopying charges.
F. ATM Fees. If you use an ATM to obtain a cash advance you
may be charged an ATM surcharge by the ATM operator or an
ATM network utilized for such a transaction. The ATM surcharge
may be charged to your account if you complete the transaction.
G. Attorney’s Fees and Costs. If you default on any part of this
Agreement, you agree to pay OnPoint all costs to collect your
Account, including court costs and reasonable attorney fees
and collection agency costs whether or not there is a lawsuit,
and fees on any appeal and fees for bankruptcy proceedings,
appeals, and any post judgment collection services, if applicable.
12. CONDITIONS OF CARD USE.
The use of your Card and Account are subject to the following
conditions:
A. Ownership of Cards. Any Card or other credit instrument
or device which we supply to you is our property and must be
returned to OnPoint, or to any person whom we authorize to act
as our agent, or to any person who is authorized to honor the
Card, immediately according to instructions. The Card may be
repossessed at any time at our sole discretion without demand
or notice. You cannot transfer your Card or Account to another
person. You may not use the Card for any illegal or unlawful
transactions and we may decline to authorize any transaction
that we believe poses an undue risk of illegality or unlawfulness.
B. Honoring the Card. Neither we nor merchants authorized
to honor the Card will be responsible for the failure or refusal
to honor the Card or any other credit instrument or device we
supply to you. If a merchant agrees to give you a refund or
adjustment, you agree to accept a credit to your Account in lieu
of a cash refund.
C. Currency Conversion/Foreign Transaction Fee. Purchases
and cash advances made in foreign countries will be billed to
you in U.S. dollars. The currency conversion rate for international
transactions as established by VISA International, Inc. is a rate
selected by VISA from the range of rates available in wholesale
currency markets for the applicable central processing date,
which rate may vary from the rate VISA itself receives, or the
government mandated rate in effect for the applicable central
processing date.
D. Notices and Payments. All notices will be sent to your
address as shown on your OnPoint account. You agree to
advise OnPoint promptly if you change your mailing address.
All payments should be mailed to OnPoint at the remittance
address shown on your monthly statements. Payments received
at that address will be credited to your Account as of the date
received.
E. Security of Access Code. The personal identification
number (PIN) is for your security purposes. The access code
is confidential and should not be disclosed to third parties or
recorded. You are responsible for safekeeping your access code.
6

You agree not to disclose or otherwise make your access code
available to anyone not authorized to sign on your accounts.
If you authorize anyone to have or use your access code,
you understand that person may review all of your account
information and make account transactions. Therefore, we are
entitled to act on transaction instructions received using your
access code and you agree that the use of your access code will
have the same effect as your signature authorizing transactions.
If you authorize anyone to use your access code in any manner
that authority will be considered unlimited in amount and
manner until you specifically revoke such authority by notifying
OnPoint. You are responsible for any transactions made by such
persons until you notify OnPoint that transactions and access by
that person are no longer authorized. If you fail to maintain or
change the security of these access codes and OnPoint suffers
a loss, we may terminate your electronic funds transfer and
account services immediately.
13. DEFAULT.
You will be in default under this Agreement if any of the
following occur: (a) Any minimum monthly payment is not made
when due; (b) You become insolvent, bankrupt, or you die; (c)
You violate any part of this Agreement, or any other agreement
with OnPoint; or (d) if we reasonably deem ourselves insecure on
your credit line. We will notify you in writing of any such action
as soon as practical if it occurs. Upon default, we may declare
the entire unpaid balance immediately due and payable, and
you agree to pay that amount plus any attorney’s fees and costs
including collection agency costs incurred by OnPoint. We can
delay enforcing any right under this Agreement without losing
that right or any other right. A negative credit report reflecting
on your credit record may be submitted to a credit-reporting
agency if you fail to fulfill the terms of this Agreement.
14. CREDIT INFORMATION/FINANCIAL STATEMENTS.
You authorize OnPoint to release information to others (e.g.,
credit bureaus, merchants, and other financial institutions)
regarding the status and history of your credit line. You agree
to provide OnPoint, at any time we deem necessary, with a
current financial statement and updated credit information upon
request. We may investigate your credit directly or through a
credit reporting agency.
15. UNAUTHORIZED USE, LOSS OR THEFT OF CREDIT CARD
You agree to notify OnPoint immediately of the loss, or the theft,
or the use without your permission, of any Card or other credit
instrument or device, which we supply to you. You may be liable
for the unauthorized use of your Card. You will need to notify:
OnPoint Community Credit Union, PO Box 31112, Tampa FL
33631-3112 or Telephone: 1-866-820-5831 orally or in writing of
loss, theft, or possible unauthorized use. If you notify OnPoint
of your lost or stolen Credit Card after discovery, you may not
be liable for any losses related to credit transactions. This zero
liability will apply provided you were not grossly negligent or
fraudulent in handling your Card; otherwise your liability for
unauthorized VISA Credit Card transactions shall not exceed $50.
7

16. YOUR CREDIT CARD BILLING RIGHTS
Keep this document for future use. This notice tells you about
your rights and our responsibilities under the Fair Credit
Billing Act.
A. What to do if you find a mistake on your statement. If you
think there is an error on your statement, write to us at:
OnPoint Community Credit Union, P.O. Box 31112, Tampa, FL
33631-3279.
In your letter, give us the following information:
• Account information: Your name and account number.
• Dollar amount: The dollar amount of the suspected error.
• Description of problem: If you think there is an error on your
bill, describe what you believe is wrong and why you believe it
is a mistake.
You must contact us:
• Within 60 days after the error appeared on your statement.
• At least 3 business days before an automated payment is
scheduled, if you want to stop payment on the amount you
think is wrong.
You must notify us of any potential errors in writing. You may call
us, but if you do we are not required to investigate any potential
errors and you may have to pay the amount in question.
B. What will happen after we receive your letter. When we
receive your letter, we must do two things:
1. Within 30 days of receiving your letter, we must tell you that
we received your letter. We will also tell you if we have already
corrected the error.
2. Within 90 days of receiving your letter, we must either correct
the error or explain to you why we believe the bill is correct.
While we investigate whether or not there has been an error:
• We cannot try to collect the amount in question, or report you
as delinquent on that amount.
• The charge in question may remain on your statement, and we
may continue to charge you interest on that amount.
• While you do not have to pay the amount in question, you are
responsible for the remainder of your balance.
• We can apply any unpaid amount against your credit limit.
After we finish our investigation, one of two things will happen:
• If we made a mistake: You will not have to pay the amount in
question or any interest or other fees related to that amount.
• If we do not believe there was a mistake: You will have to pay
the amount in question, along with applicable interest and
fees. We will send you a statement of the amount you owe
and the date payment is due. We may then report you as
delinquent if you do not pay the amount we think you owe.
If you receive our explanation but still believe your bill is wrong,
you must write to us within 10 days telling us that you still
refuse to pay. If you do so, we cannot report you as delinquent
without also reporting that you are questioning your bill. We
must tell you the name of anyone to whom we reported you as
delinquent, and we must let those organizations know when
8

the matter has been settled between us. If we do not follow all
of the rules above, you do not have to pay the first $50 of the
amount you question even if your bill is correct.
C. Your rights if you are dissatisfied with your credit card
purchases. If you are dissatisfied with the goods or services that
you have purchased with your credit card, and you have tried
in good faith to correct the problem with the merchant, you
may have the right not to pay the remaining amount due on the
purchase. To use this right, all of the following must be true:
1. The purchase must have been made in your home state
or within 100 miles of your current mailing address, and the
purchase price must have been more than $50. (Note: Neither
of these are necessary if your purchase was based on an
advertisement we mailed to you, or if we own the company that
sold you the goods or services.)
2. You must have used your credit card for the purchase.
Purchases made with cash advances from an ATM or with a
check that accesses your credit card account do not qualify.
3. You must not yet have fully paid for the purchase.
If all of the criteria above are met and you are still dissatisfied
with the purchase, contact us in writing at the above address.
While we investigate, the same rules apply to the disputed
amount as discussed above. After we finish our investigation,
we will tell you our decision. At that point, if we think you owe an
amount and you do not pay, we may report you as delinquent.
17. AMENDMENTS.
We reserve the right to amend the terms of this Agreement
at anytime as permitted by and subject to any limitations and
notice requirements of applicable law.
18. GOVERNING LAW.
This Agreement will not take effect until it is approved by
OnPoint. This Agreement shall be governed by the laws of the
State of Oregon.
19. NOTICE AND AGREEMENT.
You understand and agree to the terms and conditions in this
VISA Credit Card Agreement. You acknowledge that you have
received a copy of the Agreement. This Agreement is a final
expression of the agreement between you and OnPoint. This
Agreement may not be contradicted by evidence of any oral
agreement or alleged oral agreement and contains the terms
applicable to the credit transaction.
20. REWARDS.
Applicable to OnPoint Signature Visa with Rewards credit card
only. Features are subject to Terms and Conditions posted at
www.curewards.com.
21. CASH BACK REWARDS
Applicable to OnPoint Signature Cash Back credit card only.
Must maintain qualifications for OnPoint Bundle Rewards.
Cash back card rewards are credited annually to your open
OnPoint checking account. If you close your OnPoint checking
account before rewards are paid, even if your Signature credit
card is active, you will forfeit your rewards for that year.
9

MILITARY LENDING DISCLOSURE.
This Military Lending Disclosure is issued pursuant to and
amends your Visa Credit Card Agreement and Account
Disclosures as described below:
A. Borrower Certification of Active Duty. By requesting a
Credit Card each borrower certifies to the Credit Union that
borrower: (i) is a Covered member as a member of the Armed
Forces who is currently serving on active duty (under a call
or order not less than 30 days) Active Guard or Reserve duty;
and (ii) borrower is the Covered Member or is a dependent of
the Covered Member. Borrower(s) authorize the Credit Union
to verify their status as a Covered Member or dependent by
obtaining information from the database of the Department of
Defense or from a consumer report obtained from a consumer
reporting agency.
B. Military Annual Percentage Rate. Federal law provides
important protections to members of the Armed Forces and
their dependents relating to extensions of consumer credit. In
general, the cost of consumer credit to a member of the Armed
Forces and his or her dependent may not exceed an annual
percentage rate of 36%. This rate must include, as applicable
to the credit transaction or account: the costs associated with
credit insurance premiums; fees for ancillary products sold
in connection with the credit transaction; any application fee
charged (other than certain application fees for a credit card
account); and any participation fee charged (other than certain
participation fees for a credit card account).
C. Payment Obligation. Your payment obligation under your
Credit Card Account is set forth in Sec. 5 in the Visa Credit
Card Agreement.
D. Security Interest. The Credit Union’s security interest in all
your Credit Union shares or deposits pursuant to the Credit
Card Agreement will not apply your Credit Card Account. A
security interest in shares or deposits granted in connection
with any other credit card account, loan or line of credit does
not secure the Credit Card Account identified above, in spite
of any provision that collateral securing one loan secures all of
your other Credit Union obligations. However, if you establish
a deposit or share account specifically in connection with your
Credit Card Account, funds deposited in that account after you
establish the Credit Card Account are subject to our security
interest as set forth above in the Visa Credit Card Agreement.
E. Credit Union Toll-Free Telephone Number.
Call 1-800-527-3932 for verbal information about the Military
Annual Percentage Rate and your payment obligation.

01/21

10

M-132778

